       Audit of Welfare-to-Work
Competitive Grant No. Y-7835-9-00-81-60
      City of San Antonio, Texas




                           Office of Inspector General
                           Office of Audit
                           Report No. 06-03-002-03-386
                           Date Issued:
                                     TABLE OF CONTENTS

                                                                                                                     Page

ABBREVIATIONS......................................................................................................... ii

EXECUTIVE SUMMARY............................................................................................. 1

BACKGROUND............................................................................................................. 2

OBJECTIVES, SCOPE, AND METHODOLOGY ........................................................ 3

FINDINGS AND RECOMMENDATIONS................................................................... 4

     1. Proposed scope changes in the city’s WTW competitive grant
        program eliminated the unique and innovative elements that
        were the bases for the city being awarded a competitive grant........................... 4

     2. Contract payments to the University of Kansas were for
        non-WtW program activities. ............................................................................. 8
                  ABREVIATIONS

ASCEND   Advocates Striving to Create Edgewood Neighborhood
         Development

DCI      Department of Community Initiatives

DOL      U. S. Department of Labor

ETA      Employment and Training Administration

IDTA     Individual Development Training Account

JOLI     Job Opportunities for Low-Income Individuals

OIG      Office of Inspector General

PIP      Performance Impact Plan

TANF     Temporary Assistance for Needy Families

WtW      Welfare-to-Work




                              ii
                         EXECUTIVE SUMMARY

The U.S. Department of Labor (DOL), Employment and Training Administration
(ETA), awarded the city of San Antonio (the city), Texas, a $4,994,288 Welfare-to-
Work (WtW) competitive grant (No. Y-7835-9-00-81-60) for the period October 1,
1999, through September 30, 2004, as amended. ETA awarded the grant based on the
city’s proposal’s unique and innovative features, which included significant
performance contributions by the University of Kansas.

The city considered terminating its WtW competitive grant and returning the unused
funds to DOL because the city was not achieving the grant’s goals. ETA encouraged
the city to redesign its program and find another agency to administer the grant, rather
than terminating the grant and returning the unused funds.

Our audit objectives were to determine if:

   !"the city’s redesigned WtW program significantly changed the scope of the
     competitive grant’s original design, and

   !"the University of Kansas (the University) costs to the grant were for allowable
     activities that benefited the WtW program.

We found that the objectives and goals of the modified grant differed greatly from the
grant’s original “unique and innovative” features. The modified goals and objectives
are so different that the grant modification, approved by ETA, resulted in the grant no
longer containing the unique, innovative features that resulted in its selection from a
competitive process.

We recommend the Assistant Secretary for Employment and Training take corrective
action when ETA or the grantee determines that a competitive grantee is not performing
as intended, or its grant goals cannot be achieved. ETA should terminate the grant and
recover the unused funds. Recovered funds should be reprogrammed, if possible.

We also found that the majority of activities reported by the University of Kansas were
not allowable activities as defined by WtW regulations. We recommend the Assistant
Secretary require the city to re-evaluate the $143,653 paid to the University and recover
any payments determined not related to the WtW grant.

ETA’s Response to Our Draft Report

ETA did not respond to the draft report.

OIG’s Conclusion

Our recommendations remain unchanged.
                                BACKGROUND
The Office of Inspector General (OIG) learned that the city was considering
terminating its WtW competitive grant and returning the unused funds to DOL because
the city was not achieving the grant’s goals. The OIG also learned that the ETA
encouraged the city to redesign its program and find another agency to administer the
grant, rather than returning the unused funds.

ETA awarded the city of San Antonio (the city), Texas, a $4,994,288 Welfare-to-Work
(WtW) competitive grant (No. Y-7835-9-00-81-60), for the period October 1, 1999,
through September 30, 2004, as amended. The city’s Department of Community
Initiatives (DCI) is responsible for the grant.

In summary, the purpose of the grant was to provide comprehensive and innovative
transitional assistance over a 30-month period to Temporary Assistance for Needy
Families (TANF) recipients with disabilities and other special learning needs living in
San Antonio’s Edgewood neighborhood. One of the grant’s goals was the development
of a sustainable, community-based system and infrastructure of information,
opportunities, services, and supports that will serve as a prototype for enhancing the
opportunity of all city residents in or entering the low-wage labor market to escape
poverty through work.

The city’s WtW competitive grant program never operated as stated in the grant
agreement. Instead of creating the Edgewood Cooperative as a legal entity to operate
the WtW program, DCI created Advocates Striving to Create Edgewood Neighborhood
Development (ASCEND), using city of San Antonio staff, to administer the grant.

After local media raised concerns about ASCEND’s WtW program, the city manager
ordered the city’s Office of Internal Review to conduct an audit of the WtW
competitive grant program. The Office of Internal Review’s July 23, 2001, audit report
contained 17 findings critical of the ASCEND program.

According to the city’s Office of Internal Review audit report, since its inception, the
WtW program (i.e., the ASCEND program) was not operating as envisioned in the
grant agreement and was not meeting its program goals. Due to the unfavorable audit
report and the local media’s criticism of the program, city officials decided to either end
the grant or have an outside agency run the program. Intake into the WtW program,
that is, enrolling new participants, stopped in August 2001 and basically the WtW
program was put on hold until the new grant operator could resume WtW services.

During our fieldwork, the city was eliminating the ASCEND-administered program and
transferring the WtW program to another grant operator. Subsequent to our fieldwork,
the city selected Goodwill Industries of San Antonio, a private, nonprofit organization,
as the grant operator. The San Antonio City Council approved the Goodwill contract in
March 2002. The contract period is from April 2002 through September 2004.


                                            2
        OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our audit objectives were to determine if:

   !"the city’s redesigned WtW program significantly changed the scope of the
     competitive grant’s original design, and

   !"the University of Kansas (the University) costs to the grant were for allowable
     activities that benefited the WtW program.


Scope and Methodology

We conducted an entrance conference with city officials on November 6, 2001, and
completed our site fieldwork in December 2001. Additional documentation relating to
the audit was obtained after the end of the site field work. The audit of the changes in
the WtW program design covered the period from November 2001 through March
2002. We reviewed the original grant award, including the grant proposal and
compared the provisions to the proposed changes, primarily the city’s modification
request sent to ETA.

To determine whether the city’s payments to the University were for allowable
activities, we reviewed all the deliverables and staff timesheets provided by the
University. The deliverables documentation included correspondence from University
officials to DCI officials and monthly progress reports. The monthly progress reports,
for the period October 1999 through June 2001 listed staff activities and products
produced for the WtW program. We used the monthly progress reports to determine
what activities and products the University’s staff reported. The staff timesheets
covered the period of May 2000 through June 2001 and were used to determine what
type of activities (research, staff meetings, etc.) the University staff worked on.

Because our audit was limited to satisfying our stated objectives, we did not perform a
review of controls over performance or financial reporting systems.

Our audit was conducted in accordance with generally accepted government audit
standards.




                                             3
             FINDINGS AND RECOMMENDATIONS

1. Proposed scope changes in the city’s WtW competitive grant program
   eliminated the unique and innovative elements that were the bases for the city
   being awarded a competitive grant.

ETA awarded a WtW competitive grant to the city of San Antonio as part of the round
three competitive solicitation of proposals. ETA’s solicitation, dated January 26, 1999,
appeared in Volume 64, Number 16 of the Federal Register. The notice described the
conditions for applications and how ETA would determine which applications will be
funded. A high priority was placed on applications that target specific populations,
such as individuals with disabilities.

The notice stated: “All competitive grant projects are expected to be integral parts of a
comprehensive strategy for moving eligible individuals into unsubsidized employment
in a local, community based context. Projects should develop and implement
innovative approaches that enhance a community’s ability to move eligible individuals
into self-sustaining employment, create upward mobility paths and higher earnings
potential for WtW participants, and achieve sustainable improvements in the
community’s service infrastructure for assisting welfare recipients.” [Emphasis added.]

In addition to proposing innovative strategies for moving welfare recipients into
unsubsidized employment, applicants were encouraged to consider other service
strategies, including “Proactive strategies to involve employers in design of service
strategies and implementation of the project . . .” [Emphasis added.] Innovation was
one of the criteria to be used in rating the applications for the competitive funds.

ETA awarded the grant based on the city’s proposal’s unique and innovative features.
The objectives and goals of the modified grant differ greatly from the original “unique
and innovative” proposal. They are so different that the grant modification resulted in
the equivalent of a sole source grant using DOL competitive grant funds.

The city’s original grant award incorporated the project proposal (project narrative).
According to the project narrative, the city and its partners:

     . . . propose to provide comprehensive and innovative transitional
     assistance over a 30-month period to TANF recipients with disabilities and
     other special learning needs living in its Edgewood neighborhood. Its
     goals are: (1) long-term economic self-sufficiency through unsubsidized
     work for these recipients; and (2) the development of a sustainable,
     community-based system and infrastructure of information, opportunities,
     services and supports that will serve as a prototype for enhancing the
     opportunity of all city residents in or entering the low-wage labor market
     to escape poverty through work. . . . [Emphasis added.]


                                            4
The grant’s program goals included four interrelated strategies.

   1. A cooperative (including a community development credit union) will
      be created to provide a single point of accountability for members
      (TANF recipients and others in the low-wage labor market).

   2. A comprehensive system and infrastructure of information,
      opportunities, services, and supports will move members of the target
      population towards unsubsidized, self-sustaining work.

   3. A multi-year action plan will be developed and implemented to expand
      work opportunities for members of the target population, remove
      employment barriers, and strengthen employment supports (e.g.,
      substance abuse treatment).

   4. An employer council will be established to provide advice to the
      cooperative, expand the comprehensive infrastructure of services and
      supports, and help implement the multi-year action plan.

The grant stated that three of the four strategies are highly innovative, if not unique
approaches in assisting TANF recipients reach self-sufficiency. Furthermore, the
grant’s target population to be served was specific -- TANF recipients with disabilities
and other special learning needs living in its Edgewood neighborhood.

The key to the original grant award was the creation of the Edgewood Cooperative as a
legal entity. The University of Kansas (a contractor) was to provide the expertise and
guidance in the creation of the Edgewood Cooperative. Edgewood Cooperative’s staff
would provide most of the WtW services (e.g., job tutoring, individual assessments, and
individual development account contributions). The DCI’s staff would coordinate the
effort. The Edgewood Cooperative was to be an integral part of the other grant
strategies such as the creation of a credit union, the formation of the multi-year plan,
and the formation of the employer council.

The city’s WtW program never operated as stated in the grant agreement. Instead of
creating the Edgewood Cooperative as a legal entity to operate the WtW program, the
city created the ASCEND program using city of San Antonio staff to provide the WtW
services. According to the city’s Office of Internal Review audit report, the WtW
program (i.e., the ASCEND program) was not operating as envisioned in the grant
agreement and was not meeting its program goals.

The Office of Internal Review’s audit report stated:

       At the time of our audit work, ASCEND was in the 20th month of the
       Welfare-to-Work grant period, and the cooperative was not formed, a
       multi-year action plan was not developed, and an employer council was
       not established. The cooperative and the employer council were


                                            5
       identified in the Welfare-to-Work grant agreement as critical to the
       development and implementation of the new system and infrastructure.

The report provided recommendations for addressing the problems noted in the report
and realigning the program with its goals. Due to the unfavorable audit report and the
local media’s criticism of the program, city officials decided to either end the grant or
have an outside agency run the program.

ETA was aware of the ASCEND program’s problems through ETA’s monitoring and
media coverage. ETA advised city officials that it was ETA’s desire to keep the WtW
funds in the San Antonio community rather than returning the funds to DOL. ETA
encouraged the city to expand the area of program coverage and to solicit an outside
agency to run the program.

The city, in consultation with ETA, decided to end the ASCEND program, to modify
the scope of the grant, and to solicit proposals (with a value of $1.475 million) from
outside agencies to run the WtW program. The city would monitor the new service
delivery agency. ETA approved the city’s modification to significantly change the
WtW competitive grant’s scope.

The city selected Goodwill Industries of San Antonio as the subrecpient, and the city
council approved Goodwill’s contract for the period April 2002 through September
2004. The contract is not to exceed $1.1 million.

As stated previously, the WtW program was not operating as stated in the grant
agreement prior to the modification request. The modification request did not remedy
that situation. In fact, the modification reduced all four strategies in scope from major
roles to minor ones, or excluded them entirely. The most critical deviations from the
original grant involved the role of the Edgewood Cooperative and the Employer
Council.

The modification request stated the Edgewood Cooperative had been formed but it did
not state whether the cooperative is a legal entity. Regardless, according to the
modification request, the subrecipient contractor (Goodwill Industries), not the
Edgewood Cooperative, will provide the WtW services. The role of the Edgewood
Cooperative is not clearly defined and appears to be auxiliary in nature. The
modification states the cooperative “may assume the permanent operations of grant
activities from the selected Subrecipient contractor following the end of the grant
period.” [Emphasis added.] Therefore, the key element of the original grant, the
Edgewood Cooperative providing a significant role in the WtW program, is still
missing from the WtW program.

The creation of the Employer Council is another of the key elements that is no longer in
the program. According to the original grant award, the city, the Edgewood
Cooperative, and another agency were to work together to create an Employer Council
drawing the council members from a diverse group of public and private employers,


                                            6
especially in the fields of health care, technology, and financial institutions. Among the
activities to be provided, the Employer Council would:

   •   work with project staff, the Alamo Workforce Development Board, and
       the Cooperative to expand the infrastructure of work-based services and
       supports to Edgewood residents;

   •   work with area employers to promote learning at the workplace and
       modify employee assistance programs to better serve low-wage workers
       with disabilities and other special learning needs;

   •   work with project staff to design short-term “bridge training” needed by
       employees or prospective employees with very low skill levels (part of
       an overall pre- and post-employment work exploration strategy);

   •   work with project staff and employers to redesign occupational skills
       training to integrate basic skills and English-as-a-Second language
       components; and

   •   participate actively in developing customized training approaches by
       identifying groups of employers with common training needs to upgrade
       the skills of their employees for job retention and/or advancement.

The grant modification request eliminated the creation of the Employer Council.
Instead, the modification request planned to utilize the subrecipient contractor’s
(Goodwill) existing advisory board and does not include the activities listed above.

The modification significantly changed the scope of the original grant agreement so
that the grant no longer contains the unique, innovative features that resulted in its
selection from a competitive process.

Recommendations:

In keeping with ETA’s initiative to improve grant accountability, in the future, we
recommend the Assistant Secretary for Employment and Training terminate the grant
and recover the unused funds when either ETA or the grantee determines that a
competitive grantee cannot perform as intended, or its grant goals cannot be achieved.
If the grant is terminated within sufficient timeframes (i.e., within the year of initial
obligation), ETA should reprogram the returned funds to other successful grantees, or
fund new competitive proposals.

Finally, we recommend that the Assistant Secretary require that the city of San Antonio
account for the $.375 million difference between its $1.475 million solicitation for
proposals and the $1.1 million award to Goodwill Industries to take over the grant
operations.


                                            7
ETA’s Response to Our Draft Report

ETA did not respond to the draft report.

OIG’s Conclusion

Our recommendations remain unchanged.



2. Contract payments to the University of Kansas were for non-WtW program
   activities.

After the Office of Internal Review (OIR) issued its audit report, the OIR performed
additional audit procedures at the University of Kansas office and audited all of the
University’s documentation for the University’s billings. As a result of that review, the
city terminated the University’s $715,000 contract after paying the University $143,653
of the contract amount.

The University had submitted 14 invoices against the contract totaling $530,978. Prior
to the OIR’s audit, the city had paid the University $130,225.21. After the OIR
reviewed the University’s invoices and documentation, the OIR determined the
University was owed an additional $13,427.93. Therefore, total amount paid to the
University was $143,653. The majority of expenditures the city did not reimburse were
for staff salaries. The city notified the University that additional payment might be
made if the University could provide additional documentation -- such as evidence that
staff time was properly allocated to WtW activities -- to support the contract’s salary
charges.

We also audited the University’s invoices and deliverables documentation. However,
the focus of our audit was entirely different from that of the OIR’s audit. While the
OIR looked at whether costs billed had supporting documentation, OIG’s audit
concentrated on whether the University’s reported WtW activities were allowable
activities as defined by DOL regulations.

The University of Kansas’s contract defined the work that the University of Kansas was
to perform for the WtW program. The scope of work (as stated in the “Performance
Impact Plan” or PIP) was:

       1. Provide expertise with the development of the ASCEND
          Cooperative infrastructure, guidelines and operating procedures;
          this includes the development of:

           a. An ongoing assessment: process and the development of a
              scientifically legitimate Spanish version of a ‘tool’ used to
              screen adults for the possibility of learning disabilities.


                                            8
             b. Guidelines and procedures for supporting Job Tutoring,
                Employment Support, and Follow-on Services activities.

        2. Provide ongoing expertise and guidance in the creation of an
           ASCEND Credit Union. This is to include:

             a. Defining initial financial services and [Individual
                Development Training Account] IDTA structure; preparation
                of business plan; submission of NCUA application; and the
                capitalization of credit union and IDTAs.

             b. Developing a strategy for blending of other funding streams
                to finance support services for ASCEND members.

             c. Conducting an economic feasibility study for a Credit Union
                in the Edgewood neighborhood.

             d. Assisting in the historical and socio-political analysis of
                Edgewood’s previous credit union.

        3. Identify and inform core ASCEND staff of the other models,
            programs and “best practices” that utilize community
            cooperatives in a manner complimentary to that of ASCEND.

        4. Assist in the development of a Multi-Year Action Plan; including
           direction and guidance on the collection of member profiles and
           a member survey; and the identification of needed additional
           strategies.

        5. Quarterly review, with the Project Executive and the Project
           Director, regarding the projects scope and effectiveness.

In a June 28, 2001, letter, the University’s project director proposed to renegotiate the
University’s contract.1 He wrote that the activities outlined in the original Performance
Impact Plan (PIP) -- the contract’s statement of work -- were modified as a result of
discussions between DCI and University staff. Therefore, the work in the original PIP
became unnecessary. He provided as an example that the original PIP required the
University to provide ongoing expertise and guidance in the creation of a credit union.
The credit union was not formed; therefore, the economic study, preparation of a
business plan, submission of a National Credit Union Association application, and
credit union capitalization was not done.



1
 The University’s contract period was October 1, 1999, through March 31, 2002. Consequently, the
proposal to renegotiate the contract occurred after almost 21 months of the 30-month contract period.

                                                   9
The letter also stated that based on discussions between University and DCI staff and
decisions made by DCI, over the past 14 months University staff undertook work that
was not specifically outlined in the PIP. The letter stated: “While [University] staff
have devoted a substantial amount of time to these activities, this work is not directly
reflected in the PIP.”

We reviewed all of the University’s monthly progress reports of its staffs’ WtW
contract activities. The reports covered the period of October 1999 (the start of the
contract) through June 2001. Most of the activities reported were research activities.
Among the deliverables provided to the city were concept papers, issue papers, and
other materials for non-WtW activities. For example, the University reported research
on “best practices” that utilize community cooperatives.

Among the deliverables provided by the University for this research were:

   •   “The ABC’s of Cooperative Child Care” (in Spanish) by National Cooperative
       Business Association;

   •   “Democracy in the Workplace” video by Off Center Video;

   •   “The Role of Member Education in West Coast Retail Consumer Foods
       Cooperatives” by Fish; and

   •   “Guide to Assembling a Director Handbook” by Spatz.

Some of the research activities involved non-DOL funded programs. For example,
during a 3-month period the University reported research for an application for JOLI
(Job Opportunities for Low-Income Individuals) funds. JOLI funds are awarded by the
U.S. Department of Health and Human Services. Furthermore, the application for JOLI
funds was for the Project QUEST program. Project QUEST is a San Antonio
community-based organization that is not part of the city.

The city had charged the payments to the University to the administrative cost category.
According to 20 CFR Section 645.235(c) administrative costs are the costs associated
with performing the following functions:

(1) Performing overall general administrative functions and coordination of those
    functions under WtW including:
    (i) Accounting, budgeting, financial and cash management functions;
    (ii) Procurement and purchasing functions;
    (iii) Property management functions;
    (iv) Personnel management functions;
    (v) Payroll functions;
    (vi) Coordinating the resolution of findings arising from audits, reviews,
          investigations and incident reports;
    (vii) Audit functions;

                                           10
   (viii) General legal services functions; and
   (ix) Developing systems and procedures, including information systems, required
          for these administrative functions.

(2) Performing oversight and monitoring responsibilities related to administrative
    functions;

(3) Costs of goods and services required for administrative functions of the program,
    including goods and services such as rental or purchase of equipment, utilities,
    office supplies, postage, and rental and maintenance of office space;

(4) Travel costs incurred for official business in carrying out administrative activities or
    the overall management of the WtW system; and

(5) Costs of information systems related to administrative functions (for example,
    example, personnel, procurement, purchasing, property management, accounting
    and payroll systems) including the purchase, systems development and operating
    costs of such systems.

Based on the shown criteria above, the research activities reported by the University
do not meet the definition of administrative costs.

The other cost classification for WtW is program costs. ETA’s notice of solicitation
allowed for the following program costs that were identified in 20 CFR Part 645.220
and set forth in the notice of solicitation:

   •   Job readiness activities;
   •   Employment activities (work experience, on-the-job training, etc.);
   •   Job placement services;
   •   Post-employment services (e.g., occupational skill training, English as a second
       language);
   •   Job retention and support services; and
   •   Individual development accounts.

The notice also stated that intake, assessment, eligibility determination, individual
service strategy development, and case management could be incorporated in the above
activities.

The research activities reported by the University do not meet the above criteria
for program costs.

In addition to the progress reports provided by the University, we reviewed all the
University staff invoices that were provided to the Office of Internal Review.
According to the University’s invoices, the staff charged 11,590 hours to the WtW
project for the period May 1, 2000, though June 8, 2001. The hours were charged to
the following activities:

                                            11
                          ACTIVITY          HOURS        PERCENT
                     Research                6,268.00     54.08
                     Paid Leave              1,798.50    15.52
                     Administration          1,451.75     12.53
                     Staff Meetings          1, 373.25    11.85
                     Outside Meetings          454.50      3.92
                     Site Visits               168.00      1.45
                     No Description              33.00     0.28
                     Audit                       17.00     0.15
                     Technical Assistance        13.00     0.11
                     Special Projects            11.00     0.09
                     Travel                       2.00     0.02
                     TOTALS                 11,590.00    100.00%

Therefore, the majority of staff hours (94 percent) were for research, paid leave,
administration, and staff meetings. The remaining activities -- including those that
would appear to be more contract related such as site visits and technical assistance --
represented only 6 percent of staff time charged. This further supports that the
activities of the University staff were non-WtW allowable activities.

Recommendation:

We recommend that the Assistant Secretary for Employment and Training require the
city to reevaluate the $143,653 paid to the University and determine the portion of the
expenditures that were related to actual city grant-related WtW activities. Any
payments for costs not related to the grant should be recovered.

ETA’s Response to Our Draft Report

ETA did not respond to the draft report.

OIG’s Conclusion

Our recommendation remains unchanged.




                                              12
